No.

IN THE SUPREME COURT OF THE UNITED STATES

MAURICE MOSS, PETITIONER
v.

STATE OF FLORIDA, RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE FOURTH DISTRICT COURT OF APPEAL OF FLORIDA

PETITIONER’S MOTION TO PROCEED IN FORMA PAUPERIS

CAREY HAUGHWOUT
Public Defender

Paul Edward Petillo
Assistant Public Defender
Counsel of Record

Office of the Public Defender
Fifteenth Judicial Circuit of Florida
421 Third Street

West Palm Beach, Florida 33401
(561) 355-7600
appeals@pd15.state.fl.us
ppetillo@pd15.state.fl-us
The Petitioner, Maurice Moss, moves this Court, pursuant to Rule
39.1, Rules of the Supreme Court, to declare him indigent and allow him to
proceed in forma pauperis in this cause, in particular to waive any filing fees.
As grounds therefore, Petitioner says:

1. Petitioner applies for a writ of certiorari to review the decision of the
Fourth District Court of Appeal that resulted in the affirmance of his life
sentence (with the possibility of parole after 25 years) for a crime he
committed as a juvenile.

2. Petitioner was declared indigent for purposes of appeal.

3. Petitioner has been imprisoned since 1989 and has been indigent for
all court proceedings since that time.

4. Petitioner is now indigent and without funds to pay any fees or costs
in this action. The state court below appointed the office of undersigned
counsel for Petitioner as an indigent party pursuant to section 27.51(1)(f),
Florida Statutes.

5. Federal law requires all courts of the United States to allow
commencement and prosecution of any suit without prepayment of fees or
costs upon the showing made above. 28 U.S.C. §1915(a).

6. Refusal to allow Petitioner to proceed in forma pauperis would deny
him equal protection of the law, meaningful access to the courts, and due
process of law since he cannot otherwise get the review to which a more

affluent defendant would be entitled. See Burns v. Ohio, 360 U.S. 252 (1959)
(fees should be waived for discretionary appeal by indigent); Smith v.

Bennett, 365 U.S. 708 (1961) (fees should be waived for indigent prisoner

seeking state habeas relief).

WHEREFORE, Petitioner moves that this Court declare him indigent

and allow filing and prosecution of his petition without payment of any fees

or costs.

Respectfully submitted,

CAREY HAUGHWOUT

Public Defender

15th Judicial Circuit of Florida
421 Third Street

West Palm Beach, Florida 33401
(561) 355-7600
ppetillo@pd15.state.fl.us
appeals@pd15.org

FA: Cath

Paul Edward Petillo
Assistant Public Defender
Counsel of Record
